No. ____
_______________________
IN THE
SUPREME COURT OF THE UNITED STATES
_______________________
JOHN W. KIMBROUGH, III
Petitioner,
v.
RON NEAL, Superintendent,
Respondent.
_______________________
APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI
TO UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________

Michael K. Ausbrook
Indiana Attorney No. 17223–53
Indiana University Maurer School of Law
Federal Habeas Project
211 South Indiana Avenue
Bloomington, IN 47402
(812) 322–3218
mausbrook@gmail.com
Counsel of Record
Counsel for Petitioner

No. ____
_______________________
IN THE
SUPREME COURT OF THE UNITED STATES
_______________________
JOHN W. KIMBROUGH, III
Petitioner,
v.
RON NEAL, Superintendent
Respondent.
_______________________
APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________
To the Honorable Justice Brett Kavanaugh, as Circuit Justice for the
United States Court of Appeals for the Seventh Circuit:
The Petitioner, John W. Kimbrough, III, respectfully requests a 61-day extension
of time, to and including Monday, March 23, 2020, to file a petition for a writ of
certiorari. In support of this application, the Petitioner says:
1. The United States Court of Appeals for the Seventh Circuit issued its
decision reversing the grant of federal habeas relief on October 24, 2020, in
Kimbrough v. Neal, 941 F.3d 879 (7th Cir. October 24, 2019). A copy of that opinion
is attached to this application. Absent an extension of time, the petition for a writ of
certiorari would therefore be due on Wednesday, January 22, 2020. The Petitioner

is depositing this request with a third-party carrier 11 days before the petition’s due
date.
2. The court to which certiorari would be directed is the United States Court of
Appeals for the Seventh Circuit. This Court has jurisdiction to review the judgment
that court under 28 U.S.C. § 1254(1).
3. The Petitioner was convicted in 2011 for four counts of child molesting and
sentenced to 80 years in prison. In Petitioner’s direct appeal, without any request
by Petitioner, on the authority of Indiana Appellate Rule 7(B), a panel of the
Indiana Court of Appeals cut Petitioner’s sentence in half to 40 years.
The State sought discretionary review by the Indiana Supreme Court,
presenting the sole question of whether a discretionary appellate sentence reduction
is available under Rule 7(B) when there has been no request for such a reduction.
The Indiana Supreme Court agreed with the State that a sentence reduction under
the rule is not available unless it has been requested and reinstated Petitioner’s
80-year sentence. See Kimbrough v. State, 979 N.E.2d 625 (Ind. 2012).
Accordingly, in state post-conviction proceedings, Petitioner alleged that his
appellate lawyer had been ineffective for failing to request a sentence reduction
under Rule 7(B). (The lawyer had a demonstrable multi-year history of not even
knowing that the rule existed.) Without reaching the question of whether
Petitioner’s lawyer had performed deficiently within the meaning of Strickland v.
Washington, 466 U.S. 668 (1984), a different panel of the Indiana Court of Appeals
concluded that because it would not have granted a sentence reduction under Rule

-2-

7(B), had the reduction been requested, neither would the first panel—even though
the first panel granted the sentence reduction without a request. See Kimbrough v.
State,
Petitioner then sought federal habeas relief under 28 U.S.C. § 2254 for his
appellate ineffective-assistance claim. The district court granted a writ. That court
first concluded that Petitioner’s lawyer had performed deficiently within the
meaning of Strickland by not requesting a sentence reduction under Rule 7(B). The
Respondent Superintendent did not contest this conclusion in the Seventh Circuit.
The district court also concluded that Petitioner was prejudiced within the
meaning Strickland for the obvious reason: there was a reasonable probability that
what actually happened without a request for a sentence reduction would have
happened with a request.
The Respondent appealed. The Seventh Circuit reversed the grant of habeas
relief, saying that the panel of the Indiana Court of Appeals in Petitioner’s postconviction appeal had decided a question of state law that federal habeas courts
may not second guess. Kimbrough, 941 F.3d at 881–882. Specifically, the court said
that the Indiana Court of Appeals decided in Petitioner’s post-conviction appeal that,
as a matter of state law only, it would have been “futile” for Petitioner’s appellate
lawyer to have requested a sentence reduction under Rule 7(B). Id.
4. In this Court, the Petitioner will be challenging the Seventh Circuit’s
conclusion that the state post-conviction appellate court decided a question of state
law that federal habeas courts may not second-guess. See, e.g., Estelle v. McGuire,

-3-

502 U.S. 62, 67–68 (1991). Appellate re-sentencing under Indiana Appellate Rule
7(B) Indiana is as discretionary trial-level sentencing. Indiana state law, with
which the federal court may not disagree, is this: Rule 7(B) “leav[es] much to the
unconstrained judgment of the appellate court.” Cardwell v. State, 895 N.E.2d 1219,
1224 (Ind. 2008). In any given case, there is no “correct result,” id. at 1225, or “right
answer,” id. at 1224, about whether a sentence reduction is warranted. “As a result,
the role of an appellate court in reviewing a sentence is unlike its role in reviewing
an appeal for legal error . . . .” Id. at 1224.
The entirely unobjectionable proposition from McGuire applies to state-law
questions that involve legal error, e.g., as in McGuire, whether evidence is
admissible at trial as a matter of state law. Petitioner will be raising the important
question of whether McGuire extends to “questions” that have no “correct” answer,
i.e., “questions” that do not involve legal error. Petitioner will also be raising the
important question of whether, under Strickland, it can ever be “futile” to raise a
claim when, as the district court concluded, and the Respondent has not contested,
a lawyer has performed deficiently by failing to raise the claim.
5. The Petitioner is requesting an extension of time to file a petition for a writ of
certiorari, first because undersigned counsel has been attempting to recruit counsel
for the Petitioner. Second, when not away during the holiday break, undersigned
counsel has been occupied almost exclusively with preparing for the new semester
teaching the federal habeas litigation clinic he directs the Indiana University
Maurer School of Law.

-4-

6. The Petitioner is requesting an extension of time to file a petition for a writ of
certiorari so that the questions described above may be properly presented to the
Court.

CONCLUSION
Wherefore, the Petitioner, John W. Kimbrough, Ill, respectfully requests a
61-day extension of time, to and including Monday, March 23, 2020, to file a petition
for a writ of certiorari.
Respectfully submitted,

Michael K. Ausbrook
Indiana Attorney No. 17223-53
Indiana University Maurer School of Law
Federal Habeas Project
211 South Indiana Avenue
Bloomington, IN 47402
(812) 322-3218
mausbrook@gmail.com
Counsel of Record
Counsel for Petitioner

January 11, 2020

-5-

